                 OFFICE OF
                 INSPECTOR
                 GENERAL
                 UNITED STATES POSTAL SERVICE




  Virtual Post Office Box Roundtable
         Discussion Summary




                                                June 28, 2013
Prepared by Office of Audit
            Report Number: MS-WP-13-003
Virtual Post Office Box Roundtable Discussion Summary                          MS-WP-13-003



Introduction

The U.S. Postal Service Office of Inspector General (OIG) hosted a roundtable on May
14, 2013, to obtain participants’ views regarding our white paper – Virtual Post Office
Boxes, MS-WP-13-002, issued April 17, 2013. Participants included Postal Service
officials and stakeholders, representatives from the Postal Regulatory Commission,
labor unions and management associations, as well as digital experts with business and
academic expertise. This paper summarizes the input we received during the
roundtable discussion.

Communication is rapidly changing and people can carry on conversations, make
decisions, direct activities, and transact business using many types of communication
media. In this rapidly changing environment, an opportunity exists for the U.S. Postal
Service to serve these needs by bringing more portability and flexibility to the physical
address. The Postal Service already offers post office (PO) box service for customers
who want to receive mail in a different location than their home address. Making the
Post Office™ Box (PO box) virtual would create new opportunities for customers and
businesses to manage the physical delivery of mail and parcels the way they already
manage digital communications. This flexibility and portability does not yet exist in the
physical world, but people are searching for it.

At its most basic level, the virtual PO box would provide users with an address that
could be redirected anywhere they choose. After appropriate identity checks, users
could sign up for a virtual PO box address (for example, VPOB #1234) and log into their
USPS.COM accounts online or use smart devices to link this address with that of any
physical address they choose: a residence, a business, a nearby Post Office, or even a
physical PO box. Users could select to have packages automatically sent to a nearby
gopost® parcel locker. The Postal Service’s sorting equipment would automatically read
the virtual PO box address and route mail and packages to the physical address the
user has chosen to link to the virtual PO box. This would allow the virtual PO box to
accommodate the flow of mailpieces and parcels just in time. Customers could also be
notified immediately via email or by text message when new mailpieces arrive.

Features would include:

   A link from addresses to the virtual PO box.
   Identity verification and address protection.
   The ability to program various options and features online.
   Vanity addressing.
   International shipment and returns.
   Microwarehousing and logistics support.
   Personal message integration and data storage.
   The option to retain a physical PO box.

                                                  1
Virtual Post Office Box Roundtable Discussion Summary                          MS-WP-13-003



Summary of Roundtable Discussion

Participants were generally receptive to the ideas, features, and concepts of the virtual
PO box. Discussion then mainly concerned the role of the Postal Service and
implementation challenges of the virtual PO box. Notably, participants discussed the
implementation challenges of a virtual PO box service including operations and privacy.
Participants believed that timing is critical, and the Postal Service needs to take a step
into this arena or else miss an opportunity, given the trends in digital communications,
expanding globalization and growth in packages. As a result of the comments we
received during the virtual PO box roundtable discussion, we will consider and evaluate
areas for future work.

Role of the Postal Service

Numerous participants raised a broader question regarding the role of the Postal
Service moving forward: Will the Postal Service’s traditional role as a physical deliverer
of the mail change? Specific questions and points raised included:

   Should the Postal Service be considered a facilitator and a platform for
    communications, as opposed to simply a provider of physical mail delivery?

   Should the Postal Service remain a government entity using its mandate to promote
    competition and growth in the private sector or become a private company that takes
    advantage of new technologies to increase its competitiveness and profitability?

A Postal Service official stated that pursuing the virtual PO box service would require
the Postal Service to determine the proper timing (for example, when is the right time for
the consumer), as well as require a change in customer behavior. The Postal Service
official also said that the Postal Service would need to use its existing physical PO box,
to link enhanced services and additional offerings with a familiar product line. Further,
the Postal Service would need to capitalize on its brand and the long-standing trust in its
services, by linking that traditional trust to the new services in the digital arena.

Participants also discussed the range of additional advantages the Postal Service has
that are not traditionally possessed by other organizations offering one or several of the
virtual PO box features discussed in our white paper. For example:

   Scope, reach, and number of assets. The Postal Service could leverage existing
    retail and processing network infrastructure, using its nationwide network of
    locations to facilitate services.

   Fraud, compliance, and investigation. The Postal Service OIG and the Postal
    Inspection Service are law enforcement organizations that currently investigate
    crimes including identity theft and fraud. The reach and experience of these two
    organizations are a valuable tool for protecting customers’ privacy and security — a
    tool that could readily be adapted to meet the privacy needs of virtual PO box


                                                  2
Virtual Post Office Box Roundtable Discussion Summary                          MS-WP-13-003



   customers. However, according to one roundtable participant, the Postal Service has
   been reluctant to foster Inspection Service participation in this area.

Another participant summed up the Postal Service’s positive attributes, stating that
investigating fraud, compliance, privacy, security, and international logistics generally
extends beyond the resources of private business. The Postal Service could act in its
customers' best interest as a government entity, and private mailing sector businesses
could also benefit from (and assist with funding) these services.

Implementation Considerations and Challenges

Overall, roundtable participants were complimentary of the virtual PO box and its
potential suite of services. They saw a range of opportunities inherent in the features
mentioned and believed that the Postal Service does need to be in this increasingly
digital environment.

Although response and reaction from roundtable participants about the virtual PO box
concept and suite of services were positive, the participants raised a number of
considerations and potential challenges related to the implementation of this service,
including timing, cooperation with the private sector, operational considerations, privacy,
data protection, funding, and the universal service obligation.

Timing

Innovation and change take time and do not occur in a vacuum. According to several
roundtable participants, offering a service with as large and ambitious a vision as the
virtual PO box service would involve a long adoption cycle and could take years to
implement. Further, it will take time to get customers on board and make sure the
service appeals to them enough to encourage customer participation. While several
participants noted that this service would take a significant amount of time to develop,
others commented that the Postal Service does not have this amount of time.

Cooperation with Private Sector
One consideration that generated the most comments was the potential for the Postal
Service to partner with private sector entities to offer the virtual PO box features
proposed in the white paper. Multiple participants suggested that, to leverage its
expertise and experience, the Postal Service should partner with other companies or
organizations already engaged in some virtual PO box services.

One participant stated that, rather than compete with the private sector, the Postal
Service should move in the same direction and in cooperation with the private sector. In
this way, the Postal Service could learn from the experiences of others, which would be
invaluable to it as it charts its own course. Other participants suggested that
partnerships with organizations offering similar services to those of the virtual PO box
might also help the Postal Service address the challenge of needing capital for upfront

                                                  3
Virtual Post Office Box Roundtable Discussion Summary                         MS-WP-13-003



costs associated with starting up this service. One participant voiced concern that the
Postal Service experienced challenges when it attempted partnering previously to
provide additional services.

Operational Considerations

Our white paper, Virtual Post Office Boxes, discussed operational challenges and
considerations in implementing the virtual PO box features. Roundtable participants
echoed those concerns:

   How will the redirecting of mail to specified addresses occur?

   How will Postal Service coordinate with vendors, parcel consolidators, and package
    sorting services to effectively move mailpieces? Currently, the Postal Service may
    not know when a package is arriving until it views the shipping manifest, so how
    would the Postal Service accommodate moving various mailpieces between
    addresses?

   How will the Postal Service handle the additional labor costs that would come from
    adding certain features (such as microwarehousing and staging mail to
    accommodate requests to redirect mail from one address to another)?

   How will Postal Service prepare its networks to accommodate last mile delivery?

Privacy

Numerous participants discussed privacy concerns also mentioned in our white paper.
For example, while the Postal Service is not prohibited from maintaining a list of
customers’ names and addresses, the Postal Service is prohibited from sharing or
disseminating such lists to the public. The virtual PO box service, which proposes to link
a customer’s personal address to a virtual account, may raise some concern regarding
public access to a customer’s personal information. One participant suggested the
Postal Service would need to have U.S. Congress think differently about privacy as an
obstacle if it wished to pursue these features. Another participant stated that the
Inspection Service, a Postal Service asset, should be included in efforts to ensure
ongoing privacy protections for Postal Service customers in the digital environment.




                                                  4
Virtual Post Office Box Roundtable Discussion Summary                            MS-WP-13-003




Data Protection
The virtual PO box service proposes to link a person’s physical address or addresses
with a virtual account; because of this, according to one participant, not only are privacy
protection issues raised, but so are data protection issues and ownership questions. For
example, if a person holds a virtual PO box account linked to a traditional physical PO
box, who actually owns the data within the virtual, digital account? This question
becomes particularly challenging when the original holder of the virtual PO box is no
longer around (for example, he or she dies or becomes incapacitated). The questions
then raised included: Who owns the virtual account then? Would anyone have access to
the personal data in the virtual account (if the original holder had requested and paid for
data storage and integration)? The participant also questioned whether the virtual
account would become another way of identifying an individual who is no longer around,
because of the connection between the individual and the virtual account.

Because of these concerns, the roundtable participant suggested that we or others
determine what rules do apply with regard to data protection and personal storage,
before implementing a virtual PO box service. A Postal Service official echoed these
thoughts, in saying that implementation of a virtual PO box service would have to “start
with identity management and making sure [who] has the ownership of that mail box”
and reiterated the longstanding customer trust in the Postal Service.

Funding for Services
One participant mentioned that the funding model for the virtual PO box service – who
would pay for the features – was not clear in the white paper or during the roundtable
discussion. He noted that the presentation implied that the sender would pay for some
features. He noted that if this were true, enrollment and opting in for the service would
probably occur slowly, and revenue growth would be slow. He also suggested that the
Postal Service partner with a sponsor company to potentially bridge the gap with start-
up costs and providing initial capital investment. Other participants suggested that
maintaining access to the virtual PO box and determining which mail should be received
at customers' selected addresses should depend on which pay model was used. (The
pay model would include fees paid by the recipient or fees paid by the sender.) For
example, if a mailer pays to have catalogs delivered to a recipient’s address, delivery
should not be considered complete at receipt in the virtual PO box, rather at the
physical address itself.

Universal Service

Participants raised questions about universal service and the Postal Service's role. One
participant noted that universal service is not clearly defined as to whether it addresses
customers’ needs or wants. Another observed that the Postal Service may need to
rethink its role if it is going to venture into a virtual PO box service, considering that 30
percent of America has no Internet network access. Work is needed to determine what


                                                  5
Virtual Post Office Box Roundtable Discussion Summary                           MS-WP-13-003




customers need from a postal administration in this nation. Others agreed that a plan
would be needed to move forward.

Potential Future Work
As a result of the comments we received during the virtual PO box roundtable
discussion, we will consider and evaluate the potential for additional work in the
following areas:

   Opportunities for the Postal Service related to logistics solutions, including storage,
    shipping, and returns.

   Postal Service partnership opportunities.

   Data protection and privacy protection considerations in the digital age.

Conclusion

Our conversation on exploring virtual PO box services and enhancing the physical PO
box with additional features represent a shift for the Postal Service to a much greater
capacity in logistics.

The Postal Service has several unique advantages, as pointed out by numerous
roundtable participants:

   Vast retail, processing and delivery networks and infrastructure to bolster virtual PO
    box features like storage and shipping.

   Brand trust and loyalty that can be applied to provide secure means of digital
    communication.

   Enforcement and oversight capabilities to ensure the security and confidentiality of
    its services.

Given these strengths, the Postal Service is uniquely positioned to meet its customers’
growing needs and to participate in the rapidly changing digital arena. It can use its
existing physical, traditional PO box product line to enhance communications for its
customers as well as provide additional sources of revenue generation and growth for
the Postal Service.

As mentioned by numerous roundtable participants, the Postal Service could reach out
to potential partners and collaborate with other companies and organizations that have
traveled these digital roads. By doing so, the Postal Service could receive insight and
guidance regarding potential ways to innovate, come up with investment capital, and
operationally prepare to offer more advanced digital services. The Postal Service could


                                                  6
Virtual Post Office Box Roundtable Discussion Summary                           MS-WP-13-003



use its strengths and legacy of serving the nation as a communications platform to
enhance existing services to bring both its customers and itself into a digital postal era.




                                                  7
Virtual Post Office Box Roundtable Discussion Summary                           MS-WP-13-003




                        U.S. Postal Service Office of Inspector General
                                      1735 N. Lynn Street
                                      Arlington, VA 22209
                                   Telephone: 703-248-2100
                                       www.uspsoig.gov
            For media inquiries, contact Agapi Doulaveris Telephone: 703-248-2286
                                   adoulaveris@uspsoig.gov




                                                  8
